         Planning Investment
      Management Filing Reviews
                        Executive Summary
We found that the Offices of Disclosure and Review (ODR) and Insurance Products
(OIP), in the Division of Investment Management (IM) planned filing reviews by
setting general goals for their filing review functions and defining specific objectives
for review timeliness and compliance with Sarbanes/Oxley filing review
requirements. Also, ODR and OIP staff appeared to generally communicate
effectively with each other on disclosure issues encountered in filings.
ODR and OIP can improve controls over their filing review planning by developing
outcome objectives and information regarding their filing reviews. This would aid in
assessing program effectiveness, developing risk assessments and additional
proactive reviews, and providing data required by the Government Performance and
Results Act of 1993 (GPRA).
Other recommendations include: improving communication between ODR and the
Office of Financial Analysis (OFA); including filing review plans, as appropriate, in
action memoranda; scheduling and holding periodic staff meetings in OIP; and
updating IM’s public notice regarding its filing processing procedures.
ODR and OIP recently started pilot programs to document significant filing review
outcomes. This should allow them to begin to gather and analyze results-based
information. Also, ODR and OIP support training for their managers in developing
outcomes and measures. In addition, OIP has begun to schedule and hold periodic
staff meetings. We commend them for their efforts.

                       Scope and Objectives
Our audit objective was to evaluate internal controls regarding filing review
planning in the Offices of Disclosure and Review (ODR) and Insurance Products
(OIP). We interviewed IM staff and reviewed relevant laws, regulations and other
documentation. Also, we reviewed and analyzed information related to rules issued
in fiscal year (FY) 2004. We conducted the fieldwork between May and November
2004, in accordance with generally accepted government auditing standards.


                                Background
The Commission’s Fiscal Year (FY) 2005 budget estimate reported approximately
900 investment company complexes with approximately 35,000 investment company
portfolios and assets of approximately $7 trillion (as of the beginning of FY 2004).
The Investment Company Act of 1940 (the I/C Act) imposes requirements and
prohibitions on investment companies. Also, the Securities Act of 1933 (the

Planning Investment Management Filing Reviews (Audit #387)               March 29, 2005
                                                                                                  2

Securities Act) requires that investors receive financial and other significant
information regarding securities offered for public sale. For example, the I/C Act
requires investment companies to disclose their investment policies and prohibits
them from changing certain of these policies without shareholder approval.
The Commission’s Division of Investment Management (IM) drafts and proposes
rules, including disclosure rules, to implement the I/C and Securities Acts.
Disclosure rules generally add, change, or delete specific items in filing forms (e.g.,
Item 3 of Form N-1A, fee table disclosure).
IM’s Office of Disclosure and Review (ODR), with approximately 32 staff, reviews
investment company filings for compliance with disclosure rules. Similarly, IM’s
Office of Insurance Products (OIP), with approximately 18 staff, reviews filings
related to variable insurance products, as well as processing exemptive applications
and performing other regulatory functions.
ODR and OIP’s general goals include ensuring that investment companies fully
disclose their policies, procedures and risk and that their proposed activities are
consistent with the law.1 Other goals include responding to filers promptly and
complying with review requirements in the Sarbanes-Oxley Act of 2002
(Sarbanes/Oxley).
To accomplish this, ODR and OIP plan to review all new investment company
disclosures, material changes to existing disclosures, and certain proxy information.
Also, ODR and OIP developed timeliness objectives for filing reviews (e.g., complete
proxy reviews within 10 days). In addition, ODR and OIP set annual numerical
filing review targets to ensure that they review the periodic filings of all issuers at
least once every three years, as required by Sarbanes/Oxley. ODR and OIP may also
review filings in response to disclosure issues that arise during the year.
According to the FY 2005 budget estimate, ODR and OIP reviewed an estimated
16,000 of 40,400 filings in FY 2004.2 These filings included new and existing
portfolios, insurance contracts, fund profiles, proxies, and periodic reports.
The Office of Financial Analysis (OFA) provides research and analysis for IM. It
researches and analyzes filing information from the Commission’s internal
databases as well as from external databases. OFA’s products include “watch lists,”
which are lists of stock, bond, and money market funds with unusual returns for
their categories.
ODR and OIP currently use three Information Technology (IT) systems to receive
and store filings and correspondence, as well as manage its filing reviews. Also, OIP
is developing another IT system to enhance its filing review tracking.


                                     Audit Results
We found that ODR’s and OIP’s filing review planning consisted of general goals for
filing reviews and specific objectives regarding review timeliness and compliance

1
    Commission’s FY 2005 Budget Estimate, dated February 2004.
2
    Commission’s FY 2005 Budget Estimate, dated February 2004. We did not audit these numbers.


Planning Investment Management Filing Reviews (Audit #387)                           March 29, 2005
                                                                                                       3

with Sarbanes/Oxley review requirements. Also, review staff in ODR and OIP
appeared to generally communicate effectively with each other on disclosure issues
encountered in filings.
ODR and OIP could further enhance the effectiveness of their filing review planning
processes by developing specific objectives, improving their information regarding
filing reviews results and improving other internal controls, as discussed below.

Disclosure Objectives
The Government Performance and Results Act (GPRA) requires outcome-based goals
and objectives. Outcome goals and objectives would help ODR and OIP monitor their
effectiveness, plan proactive reviews and perform risk assessments regarding
compliance with disclosure requirements.
As noted above, ODR and OIP defined general goals for their disclosure review
functions and specific objectives for review timeliness and Sarbanes-Oxley
compliance. Also, ODR and OIP appeared to have a number of sources from which to
develop specific disclosure objectives (e.g., recent IM and Commission speeches,
Section 1(b) of the I/C Act3, filing form items, etc.). ODR and OIP, however, had not
developed specific disclosure objectives for their filing reviews.
ODR and OIP were reluctant to focus their review resources on certain disclosure
items in a filing and not on others. Consequently, ODR and OIP managers had not
routinely developed specific outcome objectives and tracked progress toward them.
Also, their IT systems were not designed to collect and analyze data on filing review
results.
ODR and OIP, however, recently implemented pilot programs to identify and
measure significant outcomes from disclosure reviews. As ODR and OIP gain
experience in identifying and analyzing outcomes, they could begin to define
disclosure objectives to guide their proactive review efforts.
However, ODR and OIP currently plan to maintain this information in paper and as
electronic text documents. Their current IT systems cannot effectively extract or
analyze this data. Alternatively, ODR and OIP could add data fields to an existing
database or develop a database to record and analyze key information.
Also, ODR and OIP supported training its managers in GPRA performance
measurement methods, and were looking into how this training would be provided
and funded.
IM’s public notice of its filing processing procedures (Release No. 33-6510, dated
March 26, 1984) did not include current filing selection practices. Over time, IM has
changed certain of its filing selection and review procedures (e.g., filings selected for
review to meet Sarbanes/Oxley requirements). IM should consider updating this
notice.




3
 Section 1(b) of the Investment Company Act lists a number of investment company practices that were
deemed potentially harmful to investors.

Planning Investment Management Filing Reviews (Audit #387)                           March 29, 2005
                                                                                           4


       Recommendation A
       The Division of Investment Management should continue development of its
       pilot program to identify and measure outcomes from disclosure reviews.

       Recommendation B
       ODR and OIP should consider developing specific filing review objectives
       (e.g., based on issues identified by IM or to address risks to investors listed in
       Section 1(b) of the Act).

       Recommendation C
       The Division of Investment Management should consider ways to better
       analyze outcome data (e.g., through a modified or new database).

       Recommendation D
       The Division of Investment Management should continue its efforts to
       identify and provide training to ODR and OIP managers on developing GPRA
       outcome goals, objectives and measures.

       Recommendation E
       The Division of Investment Management should consider updating its public
       notice of filing review policies and procedures to reflect its current practices.

Information Sharing
ODR and IM’s Office of Financial Analysis (OFA) could improve communication with
each other. For example, OFA had little information on the usefulness of its watch
lists or how its services could be made more useful to ODR. Better communication
between the two offices could help OFA further enhance its products and services for
ODR.

       Recommendation F
       OFA should consider ways to obtain input from IM staff regarding its
       products and services (e.g., surveys, feedback on usefulness of watch lists).


Compliance Monitoring Plans in Action Memoranda
When recommending a rule change to the Commission, IM prepared an action
memorandum which summarized the relevant issues. However, the Office of
Disclosure and Insurance Product Regulation’s (ODIPR) action memoranda for
disclosure rules generally did not include compliance monitoring information.
ODIPR did not include this information because ODR and OIP generally routinely
review the filings affected by new disclosure rules.
However, compliance monitoring information appears appropriate when significant
issues are involved in a proposed rule. For example, the disclosure rule might have
had significant Congressional or Commission interest (e.g., market timing, fund
proxy voting, etc.). Or, the rules might institute new forms (e.g., N-CSR for financial


Planning Investment Management Filing Reviews (Audit #387)               March 29, 2005
                                                                                      5

information and N-PX for fund proxy voting disclosures) or would require a
significant increase in resources to implement.
Including compliance information in action memoranda would improve the planning
of compliance monitoring. The action memorandum would inform the Commission
about IM’s plans to ensure compliance with the recommended rule. The Commission
could then provide timely input to IM on the plans.

       Recommendation G
       When appropriate, IM should include compliance monitoring plans in its
       action memoranda for recommended rules.

Staff Meetings
OIP’s filing review staff did not meet regularly to discuss disclosure issues. Some
OIP staff attended meetings held twice a month by ODR. However, ODR issues did
not always relate to OIP, and vice versa. OIP staff we interviewed favored holding
regularly scheduled meetings. Recently, OIP began holding regularly scheduled
meetings.

       Recommendation H
       The Office of Insurance Products should continue to schedule and hold
       periodic staff meetings.

Other Matters-Budget Information
ODR had not documented its methodology for computing its estimate of 2,024 new
portfolios filed on registration statements for FY 2004. ODR included this amount
in IM’s FY 2005 budget estimate total of 2,570 new portfolios filed in FY 2004.
Budget estimates generally include adjustments and projections because the
Commission requests data for an entire fiscal year before the fiscal year is
completed. However, these estimates and projections should be documented to ease
their verification and consistent application.

       Recommendation I
       ODR should document its methodology for developing its budget estimates.




Planning Investment Management Filing Reviews (Audit #387)           March 29, 2005
